APPENDIX A

United States v. Hernandez
United States Court of Appeals for the Fifth Circuit
April 1, 2021, Filed
No. 20-10837 Summary Calendar
Reporter
841 Fed. Appx. 736 *; 2021 U.S. App. LEXIS 9538 **; 2021 WL 1235803

UNITED STATES OF AMERICA, Plaintiff—Appellee,
versus SELVIN LEONELL HERNANDEZ, Defendant—
Appellant.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 3:19-CR401-1.

United States v. Hernandez, 2020 U.S. Dist. LEXIS 67567
(N.D. Tex., Apr. 17, 2020)
Counsel: For United States of America, Plaintiff - Appellee:
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Dallas, TX.
For Selvin Leonell Hernandez, Defendant - Appellant:
Brandon Elliott Beck, Rachel Maureen Taft, Federal Public
Defender's Office, Dallas, TX.
Judges: Before WIENER, SOUTHWICK, and DUNCAN,
Circuit Judges.

Opinion
[*736] PER CURIAM:*
Selvin Leonell Hernandez appeals his convictions on two
counts of being a felon in possession of a firearm. See 18
U.S.C. § 922(g)(1). Hernandez contends that the district court
plainly erred by accepting his guilty pleas absent evidence
that he personally moved a firearm in interstate commerce or
that a firearm was moved in [*737] interstate commerce in

the recent past, which he argues are required elements of a §
922(g)(1) offense. He concedes that his challenge to his
convictions is foreclosed by United States v. Fitzhugh, 984
F.2d 143, 146 (5th Cir. 1993), in which we held that "a
convicted felon's possession of a firearm having a past
connection to interstate commerce violates § 922(g)(1)." But
he argues that Fitzhugh was abrogated by the Supreme Court's
decision in United States v. Bond, 572 U.S. 844, 134 S. Ct.
2077, 189 L. Ed. 2d 1 (2014). Relying on Fitzhugh, the
Government moves for summary affirmance, agreeing with
Hernandez [**2] that his appeal of the factual basis of his
guilty pleas is foreclosed. Alternatively, the Government
moves for an extension of time to file a merits brief.
Neither party cites, nor are we are of, any published authority
addressing Bond's effect on the interpretation of § 922(g)(1).
Because it cannot therefore be said that the Government's
position is "clearly right as a matter of law," summary
affirmance is inappropriate in this case, and we deny the
Government's motion for summary affirmance. Groendyke
Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Nonetheless, finding no plain error, we affirm the judgment
without the need for further briefing. See generally Puckett v.
United States, 556 U.S. 129, 135, 129 S. Ct. 1423, 173 L. Ed.
2d 266 (2009); United States v. Trejo, 610 F.3d 308, 313 (5th
Cir. 2010). The absence of binding authority discussing
Bond's effect on § 922(g)'s federal nexus element renders the
question of error in this case, at best, subject to reasonable
dispute. See Puckett, 556 U.S. at 135. "By definition, that is
not plain error." United States v. Broussard, 669 F.3d 537,
550 (5th Cir. 2012).
The Government's motion for summary affirmance and its
alternative motion for an extension of time are each DENIED.
The judgment is AFFIRMED.

End of Document

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

APPENDIX B

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

Page 1 of 7 PageID 149

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

v.
SELVIN LEONELL HERNANDEZ

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:19-CR-00401-N(1)
USM Number: 59451-177
Rachel Maureen Taft
Defendant’s Attorney

THE DEFENDANT:
‫ ܆‬pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

‫ ܈‬Magistrate Judge, which was accepted by the
‫܆‬
‫܆‬

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Counts 1 through 5 of the Indictment filed August 28, 2019.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18 U.S.C. §§ 922(g)(1) and 924 (a)(2) Felon in Possession of a Firearm
21 U.S.C. § 841 (a)(1) Possession with Intent to Distribute a Controlled Substance
18 U.S.C. §§ 922(g)(1) and 924 (a)(2) Felon in Possession of a Firearm
21 U.S.C. § 841 (a)(1) Possession with Intent to Distribute a Controlled Substance
18 U.S.C. § 924 (c)(1)(A)(i) Possession of a Firearm in Furtherance of a Drug Trafficking Crime

Offense Ended

Count

05/01/2019
05/01/2019
05/01/2019
05/01/2019
05/01/2019

1
2
3
4
5

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

‫ ܆‬The defendant has been found not guilty on count(s)
‫ ܆‬Count(s) ‫ ܆‬is ‫܆‬are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

AUGUST 13, 2020
Date of Imposition of Judgment

Signature of Judge

DAVID C. GODBEY, UNITED STATES DISTRICT JUDGE
Name and Title of Judge

AUGUST 14, 2020
Date

20-10837.75

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 150

Judgment -- Page 2 of 7

SELVIN LEONELL HERNANDEZ
3:19-CR-00401-N(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker,
and considering the factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United
States Bureau of Prisons to be imprisoned for a total term of:
62 months as to counts 1 through 4 to run concurrently; 60 months as to count 5 to run consecutively to counts 1 through 4 for
a total time in custody of 122 months. This sentence as to counts 1 through 4 shall also run concurrently to any sentence
imposed in Case Nos. MB1813729, MB1858465, MB1861658, MB1954092, MB1954093, MB1954782, MB1955161, MB1959919
in Dallas County Criminal Court No. 6, Dallas, Texas; Counts 1 through 4 shall also run concurrently to any sentence imposed
in Case Nos. F-1858897, F-1858898, F-1958364, F-1933465, F-1933466, F-1933467, F-1933468, F-1933469, F-1954300, F1954301.
Count 5 shall run consecutively to any sentence imposed in Case Nos. MB1813729, MB1858465, MB1861658, MB1954092,
MB1954093, MB1954782, MB1955161, MB1959919 in Dallas County Criminal Court No. 6, Dallas, Texas; Counts 1 through 4
shall also run consecutively to any sentence imposed in Case Nos. F-1858897, F-1858898, F-1958364, F-1933465, F-1933466, F1933467, F-1933468, F-1933469, F-1954300, F-1954301.

‫ ܈‬The court makes the following recommendations to the Bureau of Prisons:
That the defendant be designated to a facility near the Dallas/Fort Worth, Texas area and participate in the Bureau of Prisons
Residential Drug Abuse Treatment Program, if possible.



‫ ܈‬The defendant is remanded to the custody of the United States Marshal.
‫ ܆‬The defendant shall surrender to the United States Marshal for this district:
‫ ܆‬a.m.
‫ ܆‬p.m.
on
‫ ܆‬at
‫ ܆‬as notified by the United States Marshal.
‫ ܆‬The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
‫ ܆‬before 2 p.m. on
‫ ܆‬as notified by the United States Marshal.
‫ ܆‬as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

_______________________________________
UNITED STATES MARSHAL

By
_______________________________________
DEPUTY UNITED STATES MARSHAL

20-10837.76

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 151

Judgment -- Page 3 of 7

SELVIN LEONELL HERNANDEZ
3:19-CR-00401-N(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Three (3) years as to Counts 1 through
5 to run concurrently.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

‫ ܆‬The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
4.
5.

‫܆‬

substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

‫܈‬
6. ‫ ܆‬You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

‫ ܆‬You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

20-10837.77

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 152

Judgment -- Page 4 of 7

SELVIN LEONELL HERNANDEZ
3:19-CR-00401-N(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

20-10837.78

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 153

Judgment -- Page 5 of 7

SELVIN LEONELL HERNANDEZ
3:19-CR-00401-N(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office
for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance
use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants during and after
completion of treatment. The defendant shall contribute to the costs of services rendered (copayment) at a rate
of at least $25 per month.

20-10837.79

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 154

Judgment -- Page 6 of 7

SELVIN LEONELL HERNANDEZ
3:19-CR-00401-N(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments page.
TOTALS

Assessment
$500.00

Restitution
$.00

Fine
$.00

AVAA Assessment*
$.00

JVTA Assessment**
$.00

‫ ܆‬The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

‫ ܆‬Restitution amount ordered pursuant to plea agreement $
‫ ܆‬The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
‫܆‬

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the Schedule
of Payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
‫ ܆‬the interest requirement is waived for the
‫ ܆‬fine
‫ ܆‬restitution

‫ ܆‬the interest requirement for the

‫ ܆‬fine

‫ ܆‬restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
*** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

20-10837.80

Case 3:19-cr-00401-N Document 41 Filed 08/14/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 155

Judgment -- Page 7 of 7

SELVIN LEONELL HERNANDEZ
3:19-CR-00401-N(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

‫܆‬

Lump sum payments of $

due immediately, balance due

‫܆‬

not later than

, or

‫܆‬

in accordance

B

‫܆‬

Payment to begin immediately (may be combined with

C

‫܆‬

Payment in equal

D

‫܆‬

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a term of
supervision; or

E

‫܆‬

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

‫܈‬

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $500.00 for Counts 1, 2, 3, 4 and 5 ,
which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

‫܆‬

C,

‫܆‬

D,

‫܆‬

E, or

‫܆‬

F below; or

‫܆‬

C,

‫܆‬

D, or

‫܆‬

F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

 Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.

‫܆‬
‫܆‬
‫܈‬

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

a Smith and Wesson, Model SD9, 9 millimeter pistol, bearing serial number FBH8093; and a Bersa, Model
Thunder Pro Ultra Compact, .45 caliber pistol, bearing serial number G78569, including any ammunition,
magazines, and/or accessories recovered with the firearm.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment, (5) fine
principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs, including cost of prosecution and court
costs.

20-10837.81

